<html>
<title> - DEFENDING THE HOMELAND:. DEPARTMENT OF DEFENSE'S ROLE IN COUNTERING WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 115-801]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 115-801

                        DEFENDING THE HOMELAND:
                    DEPARTMENT OF DEFENSE'S ROLE IN
                 COUNTERING WEAPONS OF MASS DESTRUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2018

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available via http://www.govinfo.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-404 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON ARMED SERVICES
                      
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director



_________________________________________________________________

           Subcommittee on Emerging Threats and Capabilities

JONI ERNST, Iowa, Chairman		MARTIN HEINRICH, New Mexico	
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			JEANNE SHAHEEN, New Hampshire
DAVID PERDUE, Georgia			GARY C. PETERS, Michigan
TED CRUZ, Texas
TIM SCOTT, South Carolina        

                                  (ii)


                         C O N T E N T S

_________________________________________________________________

                            February 7, 2018

                                                                   Page

Defending the Homeland: Department of Defense's Role in               1
  Countering Weapons of Mass Destruction.

Rapuano, Honorable Kenneth P., Assistant Secretary of Defense for     3
  Homeland Defense and Global Security.
Osterman, Lieutenant General Joseph L., USMC, Deputy Commander,      10
  United States Special Operations Command.

Questions for the Record.........................................    29

                                 (iii)


 
                        DEFENDING THE HOMELAND:.
                    DEPARTMENT OF DEFENSE'S ROLE IN
                         COUNTERING WEAPONS OF
                            MASS DESTRUCTION

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2018

                           U.S. Senate,    
                       Subcommittee on Emerging    
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Joni 
Ernst (chairman of the subcommittee) presiding.
    Members present: Senators Ernst, Fischer, Sullivan, 
Heinrich, Shaheen, and Peters.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Good afternoon, everyone. I'd like to call 
this Subcommittee meeting on Emerging Threats and Capabilities 
to order.
    I'll start with an opening statement. Senator Heinrich, 
we'll have an opening statement from you. Then we'll move on to 
our witnesses. So, thank you, gentlemen, for being here.
    The Subcommittee on Emerging Threats and Capabilities meets 
today to receive testimony on the Department of Defense efforts 
to counter weapons of mass destruction. We welcome Kenneth 
Rapuano, Assistant Secretary for Defense of Homeland Defense 
and Global Security--that's a very long title; you have long 
business cards, I'm sure--and Lieutenant General Joseph 
Osterman, Deputy Commander of United States Special Operations 
Command, SOCOM, and thank them for appearing before us today.
    This hearing comes at an important time. We are witnessing 
a troubling increase in the proliferation of WMDs [Weapons of 
Mass Destruction] by rogue states and terrorist organizations 
that pose a direct and growing threat to our national security. 
While we are familiar with, and concerned by, the growing size 
the capabilities of North Korea's nuclear program, we should 
also be mindful of its efforts to expand its chemical and 
biological weapons capabilities.
    The Washington Post reported in December that North Korea 
is moving steadily to acquire the essential machinery that 
could potentially be used for an advanced bioweapons programs, 
from factories, by the ton, to laboratories specializing in 
genetic modification. Similarly, ISIS [Islamic State of Iraq 
and Syria] has demonstrated its ability to develop and use 
chemical weapons like chlorine and mustard warfare agents in 
Iraq and Syria. As fighters flee the region after the fall of 
the physical caliphate, we must be aware of the potential for 
their technical knowledge to spread. Additionally, there are 
new reports of Syrian dictator Bashar al-Assad's continued use 
of chemical agents, like sarin, and attacks against his own 
people. All of these troubling developments vividly show the 
global nature of the WMD [Weapons of Mass Destruction] threat 
and, in turn, underscore the need for a global strategy to 
combat the threat.
    I note that the most recent DOD [Department of Defense] 
counter-WMD strategy was released in June of 2014. As I have 
just laid out, the scope and complexity of the problem has only 
increased since that time. This requires the DOD to reassess 
its strategy and ensure that we are postured appropriately, in 
terms of organization, authorities, and capabilities, to most 
effectively confront this threat, from preventing the 
development of new WMD threats and mitigating existing ones to 
responding in the event of a WMD incident. I look to our 
witnesses to provide the subcommittee with their candid 
assessment of how they view the WMD threat, as well as provide 
recommendations on any changes to our current approach that may 
be warranted.
    Additionally, while our preference will always be to deal 
with a threat before it reaches our shores, we must ensure that 
we are prepared to respond quickly and effectively to a WMD 
event in the Homeland. I note that, while DOD is not 
necessarily the lead organization for the Homeland response 
mission, it--in particular, the National Guard--plays a key 
role in providing unique support to civil authorities, like the 
Federal Emergency Management Agency, the Department of Homeland 
Security, and local authorities. We would appreciate an update 
on DOD planning and related efforts to fulfill its vital 
support mission in the event of a WMD attack on the Homeland.
    Lastly, it has been over one year since the unified 
campaign plan was updated to assign SOCOM with responsibility 
for synchronizing DOD's counter-WMD mission, which entails 
drafting a new global campaign plan, establishing intelligence 
priorities, and monitoring global counter-WMD operations.
    General Osterman, we look to you to provide an update on 
how SOCOM is managing its new responsibilities, the steps they 
have been--taken to date, and a description of any issues that 
could challenge the ability of SOCOM to successfully execute 
this important mission.
    Thank you for being here with us this afternoon. We look 
forward to your testimony on this important topic.
    I'll call on my Ranking Member to make his opening 
statement.

              STATEMENT OF SENATOR MARTIN HEINRICH

    Senator Heinrich. Let me--when all else fails, improvise.
    [Laughter.]
    Senator Heinrich. How's that? Let me start over.
    Let me begin by thanking Senator Ernst for holding this 
hearing on the Department of Defense's role in countering 
weapons of mass destruction. I certainly look forward to 
working with you again this year to examine key emerging 
threats and to craft the subcommittee's contribution to the 
Fiscal Year 2019 National Defense Authorization Act.
    The Department of Defense has a wide array of measures to 
control the spread of WMD, ranging from nonproliferation 
programs that help set international norms and export controls 
to other efforts that are designed to stop the development of 
WMDs by noncooperative nations.
    Assistant Secretary Rapuano, your portfolio includes policy 
oversight responsibilities for these efforts, and I look 
forward to better understanding how they are achieving their 
objectives and also what challenges they may be encountering.
    U.S. Special Operations Command, or SOCOM, has played a key 
role in supporting DOD's role in countering the proliferation 
of weapons of mass destruction for more than 25 years now. As a 
force provider, SOCOM educates, trains, and equips special 
operators tasked with interdicting and rendering safe WMDs, 
should they fall into the wrong hands. As a combatant command, 
SOCOM has also been tasked with synchronizing DOD's global 
plans and operations for countering WMDs.
    Today, I hope our witnesses will share their candid views 
on how SOCOM is fulfilling these critical responsibilities 
while also retaining its focus on countering violent extremist 
groups. As we all know, Special Operations Forces are a finite 
resource, and it is important that we maintain sufficient 
readiness to address any contingencies in these no-fail 
counter-WMD mission areas.
    I look forward to hearing your testimony, both of you.
    Senator Ernst. Okay. We'll go ahead and start with our 
witness testimony.
    Secretary Rapuano, why don't we start with you, sir.

STATEMENT OF HONORABLE KENNETH P. RAPUANO, ASSISTANT SECRETARY 
      OF DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY

    Secretary Rapuano. Thank you, Chairman Ernst, Ranking 
Member Heinrich, and members of the subcommittee. I'm pleased 
to be here today to testify about the Department of Defense's 
efforts to counter chemical, biological, radiological, and 
nuclear [CBRN] threats both at home and abroad.
    The United States faces a range of complex and 
multidimensional CBRN challenges. Over the past year, the North 
Korean regime has increased its dangerous and provocative 
behavior and continued to test nuclear weapons and ballistic 
missiles, in clear violation of multiple United Nations 
Security Council resolutions. We've also seen the continued use 
of chemical weapons by both the Syrian regime and the Islamic 
State of Iraq and Syria, further eroding the international norm 
against their use.
    More broadly, rapid technological advancements and 
increased access to dual-use technologies, expertise, and 
materials that can be used for both peaceful and military 
purposes heighten the risk that adversaries can more easily 
seek or acquire WMD. It has never been more difficult to 
prevent adversaries from acquiring the materials or expertise 
necessary to develop WMD or use CBRN materials in intentional 
attacks.
    Additionally, the speed, volume, and coverage of 
international travel means that naturally occurring pathogens 
of security concern can spread worldwide in days, potentially 
having the same catastrophic consequences of a deliberate 
biological attack.
    These diverse threats require multifaceted approaches that 
keep up with and adapt to the current threats while looking 
ahead to mitigate further risks. The intelligence community, 
Department of State, DHS [Department of Homeland Security], DOE 
[Department of Energy], and the Department of Justice all play 
critical roles in detecting threats, preventing attacks on the 
Homeland, and working with foreign partners to stop and respond 
to incidents. DOD supports these efforts through both domestic 
and overseas activities, and works closely with allies and 
partners to counter the wide range of CBRN threats that exist 
today.
    Close cooperation with the other U.S. Departments and 
agencies and allies and partners is crucial, since DOD must 
prioritize capabilities and efforts that counter operationally 
significant WMD risks and activities that are best executed by 
the Department. We do this by ensuring we have a layered 
approach to detecting and mitigating CBRN threats at the 
source, preventing them from reaching the Homeland, and, when 
necessary, responding militarily.
    The Department's strategic approach to the CWMD mission 
focuses on three lines of effort: preventing acquisition of 
WMD, containing and reducing WMD threats, and, when necessary, 
responding to and mitigating the consequences of their use.
    For example, to prevent the transfer of CBRN or dual-use 
materials to and from North Korea, the Department works closely 
with interagency partners to encourage states to impede and 
stop illicit shipments, including through efforts to build 
partner capacity and spread an understanding of international 
norms and obligations through the Proliferation Security 
Initiative. We also engage with partners through the DOD 
Cooperative Threat Reduction, or CTR, program to detect, 
secure, or eliminate CBRN materials and pathogens of security 
concern. Despite our best efforts at prevention, we must be 
prepared to contain and reduce CBRN threats once they have 
developed. DOD is postured to isolate, identify, neutralize, 
and dispose of CBRN threats before they can reach our borders.
    The Department also supports the government's efforts to 
deter adversaries and ensure that those actors that already 
possess WMD do not use them against the United States or our 
allies and partners.
    For example, DOD continues to support State Department-led 
efforts to work with international allies and partners to hold 
the Assad regime accountable for using chemical weapons. We 
remain concerned about reports of ongoing use, and will 
continue to ensure the President has all the options available 
to respond, as necessary. In addition, to contain and reduce 
the threat from ISIS, the U.S. and our coalition partners 
continue to exploit opportunities on the ground to better 
understand and disrupt their CW networks.
    Ultimately, though, should deterrence or efforts to contain 
and reduce threats fail and an adversary attacks the United 
States or our allies, the Department of Defense's top military 
priority is to respond and prevent future attacks. This may 
require U.S. forces to operate in a contaminated environment, 
which makes it critical that we safeguard the force and ensure 
U.S. personnel can sustain effective operations in the event of 
war or other contingencies. This is why DOD works closely with 
allies and partners to ensure that we are prepared to respond 
to CBRN incidents overseas.
    In Asia, for example, DOD is working with key regional 
allies, the Republic of Korea and Japan, to ensure that our 
forces remain prepared to respond to CBRN contingencies on, or 
emanating from, the Korean Peninsula.
    Elsewhere, complementing those engagements, the CBRN 
Preparedness Program trains and equips partner nations to 
enhance their capabilities to respond to, and mitigate the 
effects of, a CBRN incident.
    In addition to being prepared to respond to events 
overseas, DOD must ensure we are ready to support the Federal 
response to a domestic CBRN incident at home. While most 
incidents begin and end locally, significant events, such as a 
WMD attack, will likely require additional support from 
neighboring jurisdictions, State governments, and, as 
necessary, the Federal Government. DOD's role to assist the 
Federal Government's support of the State and local response, 
when necessary, is an important one.
    DOD has developed a wide range of domestic CBRN response 
elements, and continuously trains and exercises to employ these 
capabilities, which can be used to support civil authorities to 
help save and sustain lives in the aftermath of a CBRN 
incident. While a large-scale nuclear, chemical, or biological 
attack is something we hope will never occur, we cannot be 
complacent or wait until a threat is imminent to act.
    As I said earlier, the complexity of this mission area 
requires a whole-of-government approach and strong unity of 
effort. I work closely with the Joint Staff and the combatant 
commanders and other DOD components to ensure the Department 
prioritizes its efforts and fully leverages DOD's unique 
authorities, resources, and capabilities to protect the Nation.
    U.S. Special Operations Command, in its new role as 
coordinating authority for CWMD, has brought a renewed focus 
and sense of enthusiasm to this mission, and is playing a 
critical role in ensuring that combatant commands are taking a 
transregional approach to countering these challenges and are 
developing the tactical capability, capacity, and plans to 
operationalize CWMD efforts.
    In closing, we must anticipate that our adversaries will 
continue to evolve and develop increasingly sophisticated 
methods to pursue, develop, or deploy CBRN weapons. The 
diversity of these challenges makes it imperative that DOD be 
rigorous in prioritizing its efforts and work closely with 
other U.S. departments and agencies and international partners 
to continue and--to confront the threats posed by WMD at home 
and abroad.
    As CBRN-related challenges continue to emerge, your 
continued support for the Department and the efforts described 
today are critical to our ability to understand, anticipate, 
and mitigate these threats.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Mr. Rapuano follows:]

              Prepared Statement by Mr. Kenneth P. Rapuano
                              introduction
    Chairman Ernst, Ranking Member Heinrich, and Members of the 
Subcommittee, I am pleased to testify today about Department of Defense 
(DOD) efforts to counter chemical, biological, radiological, and 
nuclear (CBRN) threats both at home and abroad. The recently released 
National Security Strategy (NSS) makes clear that this Administration 
recognizes preventing nuclear, chemical, radiological, and biological 
attacks as a key priority and an essential component of the U.S. 
Government's efforts to protect the American people, the Homeland, and 
the American way of life. Achieving success across the CBRN-threat 
spectrum requires a whole-of-government approach, and the DOD has an 
important role to play in support of this mission. That is why today I 
would like to talk about both DOD's roles and responsibilities within 
the countering-weapons of mass destruction (CWMD) mission, and where 
DOD plays a supporting role to other departments and agencies, 
including the U.S. Department of State, the Department of Energy (DOE), 
the Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), the Centers for Disease Control and Prevention 
(CDC), the U.S. Department of Agriculture (USDA), and the U.S. Agency 
for International Development (USAID).
                           threat environment
    The use, or threatened use, of CBRN weapons poses a significant 
threat to U.S. national security and peace and stability around the 
world. In the past year, North Korea has accelerated its relentless 
pursuit of nuclear and advanced missile delivery capabilities and 
threatened to use nuclear weapons against the United States and our 
allies in the region. Further, its conventional, chemical, biological, 
and cyber capabilities continue to threaten the United States and our 
allies. Russia has expanded and improved its strategic and non-
strategic nuclear forces. China's military modernization has resulted 
in an expanded nuclear force. The Organization for the Prohibition of 
Chemical Weapons-United Nations Joint Investigative Mechanism confirmed 
that the Syrian regime and the Islamic State of Iraq and Syria (ISIS) 
usedchemical weapons in Syria. Additionally, we know ISIS has used 
chemical weapons in Iraq. Iran has agreed to constraints on its nuclear 
program in the Joint Comprehensive Plan of Action (JCPOA). 
Nevertheless, Iran retains the technological capability and much of the 
capacity necessary to develop enough fissile material for a nuclear 
weapon within one year of a decision to do so.
    More broadly, rapid technological advancements and increased access 
to dual-use goods (i.e., items that can be used for both peaceful and 
military purposes), expertise, and materials, heighten the risk that 
adversaries will seek or acquire weapons of mass destruction (WMD). It 
has never been more difficult to prevent adversaries from acquiring the 
materials or expertise necessary to develop WMD, or use CBRN materials 
in intentional attacks. Emerging technologies are increasingly lowering 
the threshold for a range of adversaries, including non-State actors, 
to develop WMD. This trend is accelerating. Additionally, the speed and 
volume of the international transportation system means that naturally 
occurring pathogens of security concern can spread worldwide in days--
potentially having the same catastrophic consequences of a deliberate 
biological attack.
    These diverse threats require multifaceted approaches that keep up 
with and adapt to the current threats while remaining postured to 
mitigate future risks. The Department of State, the Department of 
Homeland Security, the Department of Energy, the Department of Justice, 
the Department of Commerce, the Department of the Treasury, and the 
Intelligence Community, among others, all play critical roles in 
detecting threats, preventing attacks on the Homeland, and working with 
foreign partners to stop and respond to incidents. DOD supports these 
efforts through both domestic and overseas activities and works closely 
with allies and partners to counter the wide range of CBRN threats that 
exist today.
                     dod roles and responsibilities
    As the Assistant Secretary of Defense for Homeland Defense and 
Global Security ASD (HD&GS), I am responsible for the Department's CWMD 
strategy and policies, as well as the Homeland Defense \1\ mission. My 
office develops and oversees DOD's policies and guidance to protect the 
U.S. Armed Forces, the Homeland, and other U.S. interests from a CBRN 
attack or any type of destabilizing CBRN-related event, including the 
natural or intentional spread of dangerous pathogens and toxins, and 
represents DOD's interests on traditional counter-proliferation and 
non-proliferation policy issues. I am also responsible for the 
coordination of DOD assistance to Federal, State, and local officials 
in responding to threats involving nuclear, radiological, biological, 
chemical weapons, or high-yield explosives or related materials or 
technologies, including assistance in identifying, neutralizing, 
dismantling, and disposing of these weapons and materials.
---------------------------------------------------------------------------
    \1\ DOD defines ``Homeland Defense'' as ``[t]he protection of 
United States sovereignty, territory, domestic population, and critical 
infrastructure against external threats and aggression or other threats 
as directed by the President.''
---------------------------------------------------------------------------
    I work closely with the joint staff and the combatant commanders, 
including the U.S. Special Operations Command (USSOCOM) in its new role 
following the January 2017 Unified Command Plan (UCP) change, and U.S. 
Northern Command (USNORTHCOM) and U.S. Pacific Command (USPACOM) with 
their Homeland Defense and Defense Support of Civil Authorities (DSCA) 
missions. USSOCOM has brought a renewed sense of enthusiasm to the CWMD 
mission, and is playing a critical role in ensuring that the Combatant 
Commands are fully integrated into the broader CWMD mission and taking 
a transregional approach to countering these challenges. We also work 
closely with our partners in Acquisition, Technology, and Logistics 
(``Acquisition and Sustainment'' as of February 1, 2018) to ensure that 
DOD has the capabilities necessary to protect our forces and leverage 
partners' capabilities in countering global threats.
    DOD's efforts to prevent, counter, and respond to CBRN threats and 
incidents are carried out by a number of dedicated and hardworking 
airmen, sailors, marines, soldiers, coast guardsmen, and civilians. 
DOD's cadre of CWMD experts supports a diverse range of activities, 
including countering WMD-related planning, research and development, 
programming, exercising, analysis, technical reach-back support, and 
mission execution. Experts are positioned throughout the Services and 
DOD, including at the Defense Threat Reduction Agency (DTRA); the U.S. 
Army 20th Chemical, Biological, Radiological, Nuclear, and Explosives 
Command; the U.S. Army Edgewood Chemical and Biological Center (ECBC); 
and the Air Force Technical Applications Center (AFTAC). This mission 
is a team effort, and it is an honor to work with such dedicated 
professionals.
       strategic approach for countering today's cbrn challenges
    Given the scale and complexity of threats facing the United States 
and its partners today, DOD pursues three lines of effort to counter 
WMD threats: prevent acquisition, contain and reduce threats, and 
respond to crises. Close cooperation with the other U.S. departments 
and agencies, and our allies and partners, is crucial to all of these 
activities since DOD must prioritize capabilities and efforts that 
counter operationally significant WMD risks and activities that are 
best executed by the Department. Ultimately, DOD seeks to ensure that 
the United States and its allies and partners are neither attacked nor 
coerced by actors with WMD. We do this by ensuring that we have a 
layered approach to detecting and mitigating CBRN threats at the 
source, preventing them from reaching the Homeland and, if attacked, 
responding militarily to disrupt ongoing and preclude additional 
attack, and providing support to domestic and international consequence 
response efforts as requested.
                         preventing acquisition
    A critical element of efforts to counter WMD threats is preventing 
those that do not possess WMD from obtaining them. Although the 
majority of activities in this space are led by other U.S. departments 
and agencies, DOD works closely with our interagency partners to 
leverage DOD authorities, resources, and capabilities where possible to 
prevent adversaries from acquiring the technologies, materials, and 
expertise needed to develop WMD. For example, DOD works closely with 
the intelligence community and other agencies to ensure DOD understands 
the threat environment and maintains situational awareness of the 
location, quantity, and vulnerability of global materials and 
stockpiles, and of the intentions and capabilities of actors of 
concern. This is foundational to all DOD CWMD efforts, particularly 
efforts to prevent State and non-State actors from acquiring WMD.
    DOD has the authority to work with foreign partners to secure or 
eliminate threats at the source and build partner capacity to prevent 
proliferation. For example, the DOD Cooperative Threat Reduction (CTR) 
Program is engaged in more than 30 countries, helping partners to 
detect, secure, or eliminate CBRN and related materials and pathogens 
of security concern.
    Working with the Department of State, DOD also continues to raise 
the barriers to acquiring WMD material through the Proliferation 
Security Initiative (PSI). Over the nearly 15 years since its 
inception, PSI has brought together 105 nations to build political will 
to stop the trafficking of WMD, delivery systems, and related 
materials. By supporting and participating in numerous bilateral and 
multilateral exercises, and through leadership in the PSI's Operational 
Experts Group, DOD works alongside the Department of State and experts 
from other U.S. departments and agencies to engage with partners to 
address all aspects of the proliferation threat from enhancing 
partners' CBRN defense capabilities, to preventing access to dual-use 
materials, to interdicting shipments of proliferation concern.
    In addition, DOD supports State and other U.S. departments and 
agencies that lead efforts to implement and monitor international 
treaties and agreements, including the Nuclear Nonproliferation Treaty 
(NPT), the Biological Weapons Convention (BWC), and the Chemical 
Weapons Convention (CWC). DOD also supports efforts to prevent the 
misuse of sensitive dual-use technologies through its support to the 
Nuclear Suppliers Group, Australia Group, and other key regimes. As 
part of these efforts, DOD works with partners to monitor over-the-
horizon threats and consider the implications of emerging and 
disruptive technologies, such as synthetic biology, for multilateral 
treaties and regimes, as well as for ways to ensure that our forces 
remain protected in the face of what may be emerging threats.
                    containing and reducing threats
    For States that already possess WMD programs, DOD supports efforts 
to deter use and contain and reduce threats. The use of chemical 
weapons by ISIS in Iraq and Syria and by the Syrian regime in Syria 
over recent years has reinforced the importance of containing and 
reducing CBRN threats and the risks posed by extant WMD.
    In an effort to leverage the capabilities of foreign allies and 
partners, one of Secretary Mattis's top priorities, DOD engages 
multilaterally through the North Atlantic Treaty Organization (NATO) 
and bilaterally with other countries such as the United Kingdom on a 
number of CWMD issues. We also work with partners to strengthen their 
ability to detect, interdict, and mitigate threats at and within their 
borders. For example, the DOD CTR Program works with partners in the 
Middle East and North Africa, as well as along vulnerable borders in 
Eastern Europe to prevent the proliferation of CBRN capabilities.
    Other U.S. Government departments and agencies have key roles 
preventing illicit trade and technology transfers relevant to WMD, 
including the Department of State's role in negotiating and 
implementing export control regimes, the Department of Treasury's 
authorities to sanction proliferators, the Department of Homeland 
Security's responsibilities to prevent and screen for dangerous 
exports, and the Department of Commerce's efforts to ensure that U.S. 
goods are not available to dangerous actors. DOD is prepared to support 
interdiction options authorized by United Nations Security Council 
Resolutions if there are no other options available. We also engage 
with domestic interagency partners including the Department of Homeland 
Security, the Federal Bureau of Investigation, and the Department of 
Health and
    Human Services to leverage unique DOD capabilities in support of 
U.S. Government efforts to prevent and, if necessary, interdict CBRN 
weapons and materials from crossing our nation's borders into the 
Homeland.
    Where hostile actors persist in making significant progress toward 
acquiring WMD, DOD will be prepared to undertake or support kinetic and 
non-kinetic actions to prevent such capabilities from being fully 
realized. DOD is postured to counter imminent WMD threats and maintains 
specialized plans and capabilities to isolate, intercept, seize, and 
secure lost or stolen items and manage CBRN threats from hostile or 
fragile States. DOD maintains the ability to conduct specialized 
pathway and WMD defeat missions. This involves developing and fielding 
tailored kinetic and non-kinetic capabilities to neutralize or destroy 
weapons and agents; delivery systems; and materials, facilities, and 
processes, including the functional or structural defeat of hardened 
targets. DOD also has the authority to work cooperatively with foreign 
partners to dismantle and dispose of CBRN weapons and materials. This 
includes deliberate technical processes that reduce or dismantle 
production methods, materials, stockpiles, and technical 
infrastructure; the redirection of an actor's capabilities and 
expertise towards peaceful productive activities; and the establishment 
of monitoring regimes to ensure a WMD program is not reconstituted.
    Finally, a cornerstone of U.S. efforts to contain and reduce 
threats is our ability to deter coercion or use. The United States 
maintains a range of capabilities, both conventional and strategic, to 
deter adversaries and ensure that those actors that already possess WMD 
do not use them against the United States or its allies and interests. 
Defenses in depth, including passive countermeasures, enhanced border 
security, and missile defenses, also help to deter the transfer or use 
of WMD. Although strategic deterrence and missile defense are not a 
function of the ASD (HD&GS), building resilient capabilities both 
overseas and in the Homeland supports deterrence, and my office helps 
ensure that we are prepared to respond to an attack.
    To decrease incentives for retention and employment of WMD 
arsenals, DOD supports the creation and implementation of effective 
arms-control initiatives, including measures to enhance security and 
safety practices. As noted in the recently released Nuclear Posture 
Review (NPR), the United States intends to work to create the 
conditions for disarmament by pursuing transparency measures, engaging 
in confidence and security-building measures with adversaries, and 
pursuing new arms-control measures when conditions permit that would 
improve the security of the United States and its allies and partners.
                         responding to wmd use
    As the National Defense Strategy makes clear, should deterrence or 
efforts to contain and reduce threats fail, the Joint Force must be 
prepared to prevail. Our top Military CWMD priority is to attack the 
source of the WMD attack to prevent ongoing or further attacks. To 
guarantee DOD's warfighting capabilities, DOD must safeguard the force 
and mitigate the hazards and effects of use to ensure U.S. military and 
other mission-critical personnel can sustain effective operations in 
the event of war or other contingencies. This includes recovering 
casualties rapidly, decontaminating personnel and equipment, and 
establishing a protective posture while continually monitoring the 
force.
    DOD works closely with allies and partners to ensure that we are 
prepared to respond to international CBRN incidents. For example, 
supported by other U.S. departments and agencies, the Office of the 
Secretary of Defense, USPACOM, and U.S. Forces Korea work closely with 
our Republic of Korea and Japanese counterparts to ensure that our 
regional alliances are prepared to respond to WMD contingencies on, or 
emanating from, the Korean Peninsula. This includes the conduct of 
semi-annual CWMD-focused bilateral engagements, support to regional 
exercises, and providing policy guidance to enable effective CWMD 
operations. The U.S. Army's 20th Chemical, Biological, Radiological, 
Nuclear, and Explosive (CBRNE) Command also continues to develop and 
refine the extensive capabilities and technical expertise necessary to 
deploy rapidly in support of U.S. forces around the world and conducts 
regular training exercises to operate in highly challenging realistic 
operational environments. In addition, DOD works with foreign military 
and civilian first-responders through the CBRN Preparedness Program to 
help strengthen our partners' ability to respond to and mitigate the 
effects of a CBRN incident. Building partner nation response 
capabilities promotes regional security cooperation and bilateral and 
multilateral interoperability and reduces the potential for a large 
U.S. Government requirement to provide assistance to international CBRN 
incident-response operations.
    From the Homeland perspective, I work closely with the commanders 
of USNORTHCOM and USPACOM to ensure DOD forces remain ready to deter, 
defend against, and, when required, defeat nation-State or terrorist 
WMD or CBRN attacks on the Homeland in the air, maritime, and land 
domains. As noted, DOD's primary responsibility is to employ our 
warfighting capabilities to prevent, interdict, and respond militarily 
to preclude further WMD attacks; however, DOD also plays an important 
supporting role in the national response system.
    As provided in the National Response Framework, the national 
response system and its protocols provide tiered levels of support when 
additional resources or capabilities are needed. Most incidents begin 
and end locally and are managed at the local level. Some may require 
additional support from neighboring jurisdictions, State governments, 
and, as necessary, the Federal Government. The Federal Government's 
role is to support State and local emergency assistance efforts to save 
lives, protect property and public health and safety, and lessen or 
avert the threat of a catastrophe. DOD's role is to assist the Federal 
Government's support of the State and local response.
    The Federal Emergency Management Agency (FEMA) is responsible for 
coordinating the Federal Government's response to major disasters, 
including WMD attacks. DOD supports this response, providing DSCA--
using available capabilities developed for DOD's warfighting mission--
in support of FEMA or another lead Federal agency, when directed by the 
President or when the Secretary of Defense has approved a request for 
assistance pursuant to the Stafford Act \2\ or the Economy Act. \3\ 
This arrangement is absolutely critical to ensuring that DOD 
capabilities are utilized as effectively and efficiently as possible to 
save and sustain lives, particularly incidents involving multiple 
States.
---------------------------------------------------------------------------
    \2\ The Robert T. Stafford Disaster Relief and Emergency Assistance 
Act (Public Law 93-288), as amended.
    \3\ 31 U.S.C. Sec. 1535.
---------------------------------------------------------------------------
    DOD supports its Federal- and State-partner preparedness efforts to 
respond to CBRN incidents in the Homeland, such as integrated regional 
planning, training, and exercises in coordination with DHS, FEMA, the 
Department of Health and Human Services, the FBI, and other Federal 
partners. DOD is postured to assist civil authority efforts to detect, 
identify, neutralize, dismantle, and dispose of CBRN threats before 
they can reach our nation's borders and, if they succeed in penetrating 
our borders, before they can be employed against our nation. DOD has 
developed a wide range of CBRN-response capabilities and continuously 
trains and exercises to employ these capabilities rapidly in support to 
civil authorities to help save and sustain lives in the aftermath of a 
CBRN incident.
    The DOD CBRN Response Enterprise--almost 18,735 military personnel 
strong--currently consists of:
    <bullet>  National Guard Weapons of Mass Destruction Civil Support 
Teams (one in each State and territory and two in California, Florida, 
and New York);
    <bullet>  17 National Guard CBRN Enhanced Response Force Packages 
(stationed in Alabama, Colorado, Florida, Hawaii, Illinois, Indiana, 
Kentucky, Louisiana, Maine, Minnesota, Nebraska, Nevada, Oregon, Puerto 
Rico, Virginia, West Virginia, and Wisconsin);
    <bullet>  10 National Guard Homeland Response Forces (one stationed 
in each of the 10 FEMA regions);
    <bullet>  One Defense CBRN Response Force; and
    <bullet>  Two Command and Control CBRN Response Elements.
    The CBRN Response Enterprise provides such critical capabilities as 
detection and assessment of CBRN hazards; casualty search and 
extraction; casualty decontamination; emergency medical, patient 
triage, trauma care, and surgical and intensive medical care; fatality 
recovery; ground and rotary-wing air patient movement; security; 
command and control; engineering; logistics; transportation; and 
aviation lift.
                               conclusion
    We must anticipate that our adversaries will continue to evolve and 
develop increasingly sophisticated methods to pursue, develop, or 
deploy CBRN weapons. The diversity of these threats makes it imperative 
that DOD be rigorous in prioritizing its efforts and work closely with 
other U.S. departments and agencies and international partners to 
confront the threats posed by WMD at home and abroad. As WMD-related 
crises continue to emerge, your continued support in the areas 
described today are critical to our ability to understand, anticipate, 
and mitigate these threats.
    Chairman Ernst, Ranking Member Heinrich, Members of the 
Subcommittee: We appreciate your leadership and your continued support 
for the Department of Defense. Thank you for the opportunity to appear 
before you today. I look forward to your questions.

    Senator Ernst. Thank you very much, Secretary.
    General Osterman?

   STATEMENT OF LIEUTENANT GENERAL JOSEPH L. OSTERMAN, USMC, 
   DEPUTY COMMANDER, UNITED STATES SPECIAL OPERATIONS COMMAND

    Lieutenant General Osterman. Chairwoman Ernst, Ranking 
Member Heinrich, distinguished members of the subcommittee, 
thanks for the opportunity to address you today.
    It is an honor to testify with Assistant Secretary of 
Defense Rapuano, whose office is critical in providing the 
policy and strategic guidance for the Department of Defense's 
support to countering weapons of mass destruction, or WMD.
    During his posture testimony to the full Senate Armed 
Services Committee last February, General Thomas outlined the 
U.S. Special Operation Command, or USSOCOM's, initial goals for 
our new role following the UCP change of January 2017. We're 
proud to report significant strides in increasing 
communication, information-sharing, and operational 
coordination with other U.S. Government agencies, as well as 
allies and partners who are working in this mission space.
    USSOCOM has decades of experience preparing and providing 
U.S. Special Operations Forces to execute counter-WMD tasks. 
The role of coordinating authority, as directed by the Unified 
Command Plan, broadens USSOCOM's scope of responsibility from 
traditional Special Operations Forces' specific roles to the 
planning of Department of Defense counter-WMD efforts in 
support of other combatant commands, Department priorities, 
and, as directed, other U.S. Government agencies. As in other 
mission areas in which coordinating authority has been 
established, this enables a more strategic approach and 
enhanced integration of Department of Defense plans and 
intelligence priorities.
    Since the transfer of Defense lead responsibility for this 
mission set for U.S. Strategic Command and the establishment of 
USSOCOM's coordinating authority, we've focused on three major 
areas of effort:
    First, we're developing a functional campaign plan, in 
coordination with the geographic combatant commands. The 
campaign plan takes a transregional perspective and emphasizes 
preventing new WMD development in existing programs and 
precluding aspiring actors from obtaining a WMD.
    Second, we've conducted a baseline assessment to determine 
geographic combatant command counter-WMD capabilities and 
capacities. The assessment has identified shortfalls and will 
inform recommendations of future capability development and 
resource allocation.
    Third, we're increasing our understanding of the operating 
environment by enhancing integration of intelligence, planning, 
and assessments. To this end, we've established a Counter-WMD 
Fusion Center dedicated to coordinating information flow and 
planning, fusing intelligence and operations, and providing the 
WMD community of action a single point of contact for DOD 
operational capability.
    While much progress has been made in the past year, a 
tremendous amount of work remains to finalize and fully 
implement these efforts. We look forward to continuing to 
collaborate closely with the Office of the Secretary of 
Defense, the Joint Staff, Defense Threat Reduction Agency, 
other combatant commands, and the rest of the counter-WMD 
community.
    Thank you for the subcommittee's continued support to the 
counter-WMD mission, to our servicemen, and to our families.
    Thank you.
    [The prepared statement of Lieutenant General Osterman 
follows:]

   Prepared Statement by Lieutenant General Joseph L. Osterman, U.S. 
                              Marine Corps
    Chairwoman Ernst, Ranking Member Heinrich and Members of the 
Subcommittee, thank you for the opportunity to address you today. It 
has been just under a year since General Thomas' testimony to the full 
Senate Armed Services Committee. During that address, he unveiled the 
U.S. Special Operations Command's (USSOCOM) goals in our new role as 
DOD's Coordinating Authority (CA) for Countering Weapons of Mass 
Destruction (CWMD), on which this testimony is focused. I am proud to 
say that we have made tremendous strides in enhancing the dedicated 
CWMD community of action, including: heightened operational 
coordination within and among entities; the development of a center 
dedicated to coordinating information flow and executing planning 
efforts; and further refinement, and thus improvement, of our initial 
goals. A tremendous amount of work remains. We must finalize and 
continue to refine an active campaign plan. To that end, we must expand 
and refresh efforts to assess and understand the environment in which 
we operate, and regularly measure how our capabilities map to these 
assessments. The reality is that the CWMD mission is highly dynamic and 
constantly evolving, requiring unity of effort and constant vigilance.
    The WMD threat has evolved beyond state-sponsored programs, and its 
transregional nature challenges regionally focused planning efforts and 
operations. The danger from state and non-state actors attempting to 
acquire, proliferate, or use WMD is increasing and the technology, 
materials, and expertise to develop WMD are more readily available than 
ever before. There is a need for robust monitoring of potential sources 
of supply and expertise, whether witting or unwitting, while also 
focusing on emerging threats and capabilities. Advances in, as well as 
the dual use nature of, science and technology further exacerbate this 
problem. Differentiating between peaceful scientific research and 
nefarious intent requires exquisite access into adversary leadership 
decision-making. The United States and our partners face a persistent 
threat against our citizens and interests.
    One year ago, USSOCOM assumed responsibilities as DOD's CA for 
CWMD. This role broadens USSOCOM's scope of responsibility from its 
traditional Special Operations Forces (SOF)-specific CWMD roles to 
encompass CWMD planning efforts for the Department. As such, we aim to 
bridge the gap between policy guidance and tactical capability and 
capacity by actively supporting Combatant Command (CCMD) planning 
efforts, Departmental priorities, and, as directed, other U.S. 
Government agencies. We are doing this, as directed in the Unified 
Command Plan (UCP) by integrating DOD plans and intelligence priorities 
to support operations against state and non-state networks that possess 
or seek WMD and executing global operations against the same, in 
coordination with other Combatant Commands.
    USSOCOM's traditional role in the tactical aspects of CWMD likely 
contributed to the Department's decision to transfer many of the U.S. 
Strategic Command's (USSTRATCOM) responsibilities to USSOCOM, though 
not all missions were included. USSTRATCOM remains the lead for 
strategic deterrence, nuclear operations, Global Strike, and missile 
defense. Similarly, U.S. Northern Command (USNORTHCOM) and U.S. Pacific 
Command (PACOM) maintain responsibility for Defense Support to Civil 
Authorities (DSCA) and Chemical, Biological, Radiological and Nuclear 
(CBRN) response. Other ancillary missions associated with WMD are 
assigned to appropriate staff agencies, such as the capabilities 
development portfolio, assigned to the Joint Staff. The shift in 
responsibility exposed gaps that the community continues to resolve, 
underscoring the need to continue to build and foster a strong and 
efficient CWMD team. In coordination with the Defense Threat Reduction 
Agency (DTRA), we are gaining greater fidelity on shortfalls with 
respect to CWMD capabilities within the Geographic Combatant Commands 
(GCC).
    Given both the complexity of this mission and our role as the CA, 
USSOCOM established the CWMD Fusion Center (FC) located at both 
HQUSSOCOM at MacDill Air Force Base and at Ft. Belvoir, collocated with 
DTRA. The FC is a nexus of CWMD awareness, active planning, and 
operational advocacy across functional and geographic missions. The FC 
accomplishes its mission by coordinating planning, integrating 
intelligence, assessing campaign progress, advocating for CWMD 
operations with the Services and CCMDs, and--when directed--supporting 
execution. Operating within broader national and Department policy 
guidance, as conveyed by the Office of the Secretary of Defense for 
Policy (OSD-P) and the Joint Staff, the FC combines the strengths and 
perspectives of CWMD stakeholders in order to achieve a comprehensive 
understanding of the threat environment as well as partner 
capabilities. In turn, the FC identifies opportunities for action 
against adversary vulnerabilities and advocates for intelligence 
priorities. In doing so, we facilitate an operational construct that is 
active and responsive to the dynamic CWMD environment, while 
maintaining a persistent strategic focus.
    The CWMD mission space is broad and varied. In pre-crisis 
scenarios, other Departments and agencies have traditionally maintained 
primacy with DOD playing a supporting role. These efforts span from 
export license reviews to interdiction of specialized WMD components. 
The CWMD FC is working with OSD and the Joint Staff to enhance DOD's 
operational relationships across the interagency and Intelligence 
Community, in order to optimize DOD support. Within DOD, we are 
engaging with OSD, the Joint Staff, the GCCs, Theater Special 
Operations Commands (TSOCs), and other DOD elements to ensure we share 
a collective understanding of the threat and are making best use of 
existing resources. The CWMD FC has also improved our ability to assess 
DOD's CWMD requirements and drive unity of effort.
    During our first year, we conducted a baseline assessment of the 
draft Functional Campaign Plan Strategic Objectives with significant 
input from the GCCs. The primary finding is that the GCCs lack 
sufficient capacity and, therefore, assume risk in CWMD. This finding 
is based on a number of factors which include: resource competition 
with other priority mission areas; gaps in understanding the threat--a 
global and evolving threat; unconnected data sources--absence of a 
complete picture; traditional prevalence of Interagency/Intelligence 
Community (IA/IC) in preventing proliferation--prevention not viewed as 
a primary military task; and lack of clear tasks in support of a 
strategy--perhaps the primary cause for the CWMD-related risks we have 
assumed. In addition, the baseline assessment identified the 
difficulties with anticipating the emergence of new WMD programs, and 
that analysis remains important to understanding the networks 
supporting WMD pathways. As we conduct future baseline assessments, we 
will expand our analysis to include the Services, the rest of the 
Interagency, and Partner Nations. Finally, we will highlight any gaps 
in policy, authorities, or other strategic issues that may be 
illuminated through our assessments with our teammates in the Joint 
Staff and OSD.
    In addition to the baseline assessment, we have focused efforts on 
writing a Joint Staff-directed Functional Campaign Plan for CWMD as an 
engine for change. The Functional Campaign Plan for Countering WMD (DOD 
FCP-CWMD), which is being developed in coordination with the Combatant 
Commands, translates policy into strategic guidance that can be further 
refined into GCC-specific operational planning. Close coordination with 
GCCs--who conduct the majority of campaign activities--enables us to 
assess and, when appropriate, adjust guidance in light of operational 
effectiveness and changing intelligence. We have established 
collaborative forums among CCMDs, combat support agencies, Military 
Services, other U.S. Government agencies with CWMD equities, allies, 
and partner nations. The plan opens the operational aperture of how DOD 
sees the WMD problem with a transregional perspective, emphasizing 
active prevention of new WMD development, and precluding aspiring 
actors from attaining WMD.
    The FCP is crosscutting with the Department's threat-specific 
Global Campaign Plans (GCPs) and has three Lines of Effort (LOE): 
Prevent, Protect, Respond. It nests with, supports, and complements the 
National Defense Strategy, DOD Strategy to Counter WMD and other 
strategic guidance documents. The FCP focuses heavily on the Prevent 
LOE, given the strategic imperative to operate as early in the WMD 
threat spectrum as possible. Actors of concern, in accordance with 
priorities set by the National Security Strategy and National Defense 
Strategy, are addressed individually in the campaign plan's supporting 
annexes, which in turn, provide operational constructs that guide the 
GCCs operational planning.
    The central idea driving the FCP's strategic approach to preventing 
proliferation is disrupting or defeating WMD pathways. Pathways 
represent the way actors of concern move from the notion of WMD to 
development, delivery, or use. Examining pathways through the lens of 
people, places, and things--coupled with monitoring movement of WMD-
related technology, materials and equipment--illuminates emerging WMD 
actors and identifies opportunities to disrupt. Disrupting pathways at 
the far left of the continuum includes affecting the decision making of 
aspirants as well as the means to acquire infrastructure and expertise. 
Disrupting progress as early as possible ensures that those undeterred 
lack the means to produce WMD. The FCP prioritizes intelligence 
collection, analysis, and production to outline adversaries' objectives 
concerning research and development and highlights potential 
vulnerabilities along the continuum. We are applying this model in 
close coordination with the CWMD community of action and, as a result, 
are already seeing progress in implementing a more active campaign. In 
support of this model, the FCP provides a guidepost for GCCs to prepare 
supporting plans or to integrate campaign activities into existing 
plans to meet objectives and accomplish tasks outlined in the base plan 
and annexes.
    Through recurring battle rhythm events, we aim to coordinate DOD 
operational activities across the spectrum of the strategic and 
operational space. The cornerstone of this battle rhythm is the semi-
annual CWMD Global Synchronization Conference (GSC). The GSC serves as 
a venue for the CWMD community to address and advance activities to 
prepare, deny, defeat, and respond to the threats posed by WMD. These 
conferences emphasize the interoperability between USG assets and 
international partners to succeed in the global environment. While 
previous GSCs focused on broad sets of topics applicable across the 
entire spectrum of the mission, we have focused the next one--scheduled 
for this February--on identifying detailed requirements and describing 
how the FCP is implemented for a specified WMD actor of concern.
    In closing, I would like to emphasize our priorities going forward. 
First, we will finalize the Department's Functional Campaign Plan for 
Countering WMD in an inclusive manner that builds and strengthens 
established partnerships. Second, we will improve our assessment 
process in order to measure more holistically how we can best operate 
and achieve our objectives in this complex environment. In addition, we 
will continually update our approach as our understanding of the myriad 
adversaries, threats, and capabilities evolves. Thank you for your 
interest in our role as Coordinating Authority and your continued 
support of USSOCOM and our people.

    Senator Ernst. Outstanding.
    Thank you, gentlemen, very much.
    We will open with questions, and we will do those in 5-
minute iterations. Should we be joined by other members of the 
subcommittee, we'll allow their questions, as well.
    I would like to start with you, Mr. Rapuano. Which WMD 
threat concerns you most at this stage, based on your work 
within the Department and your insights across our 
interagencies?
    Secretary Rapuano. Thank you, Senator.
    I think it depends on the filter that you look through. 
But, if we're looking at the near term, clearly North Korea is 
a primary concern and focus of the Department. A combination of 
destabilizing behaviors and very aggressive testing program for 
their ICBMs [Intercontinental Ballistic Missiles], aggressive 
statements about their nuclear weapons program and 
capabilities, give cause for great concern. And we've got a lot 
of efforts focused on that.
    I think that we also put a lot of concern, in terms of that 
evolving capability, beyond the primary Russia-China focus, 
which you're well familiar with from the NPR [Nuclear Posture 
Review] and National Defense Strategy, is Iran, that they are 
developing missile and weapons capabilities, in contravention 
of U.N. security resolutions, and are a threat that we are 
monitoring closely and looking to address in a variety of ways.
    Then, finally, in terms of developments that create growing 
concern over time, is biotechnology, just the rapid advances 
and ubiquitous availability of biotechnology today. Things that 
you can buy on the Web now, and essentially do a paint-by-
numbers instruction, were the province of Nobel prize-winning 
scientists, only decades ago. That really levels the playing 
field for any actor looking to develop biotechnology, 
biological agents, and novelty engineer agents that could 
present a real threat.
    Senator Ernst. Certainly. Thank you. You mentioned North 
Korea, of course, the nuclear tests. We've all followed that 
with great interest. But, something that we just don't talk 
about a lot, but was pointed out in a Washington Post--and I 
mentioned it in my remarks--is North Korea acquiring different 
mechanical pieces that potentially could allow them to develop 
chemical or biological weapons. Is--has that been a focus, as 
well, of the agency?
    Secretary Rapuano. Yes. We and the rest of the interagency 
community have significant concerns about North Korean chemical 
and biological programs that we believed are focused on 
developing weapons. So, we are tracking that very closely. 
There are a variety of export control, Australia Group and 
other organizations, for which we look to limit the export, the 
further proliferation of agents of particular concern. But, we 
do have concerns about biotechnology and the ability to 
innovate agents and develop them without that kind of seed 
stock over the longer term.
    Senator Ernst. Okay. Then, in regards to the biological and 
chemical weapons, as well, Secretary or General, when we talk 
about nation-states, we know that they have the capabilities 
out there. What are the assessments, when it comes to various 
terrorist organizations and/or including ISIS? Do they have the 
ability to deliver those types of weapons?
    Secretary Rapuano. So, we understand that both al Qaeda and 
ISIS are interested in chemical, biological--nuclear, they 
certainly would be if they have opportunity to acquire the 
materials and know-how. More details, in terms of understanding 
of those capacities, we'd need to go to closed session, 
Senator.
    Senator Ernst. Yes, I'm sorry.
    Do you have anything----
    Secretary Rapuano. I'm sorry.
    General Osterman?
    Senator Ernst.--to add?
    Lieutenant General Osterman. The only thing I'd like to 
add, Senator, is the fact that part of our functional campaign 
planning that we associate with this is to allow us, not only 
the state, but nonstate actors, to look at the threats, if you 
will, in vertical columns, and then as the functional campaign 
plan crosscuts those, so we can observe where the technology 
transfer may occur between state/nonstate actors, also where 
one nonstate actor perhaps is working with another nonstate 
actor in a different geographic location or in a functional 
capacity. So, we try to weave that in with the translation of 
our strategy and policy to actual tactical application of 
interdiction in order to, basically, reinforce the larger 
protocol efforts that are in place.
    Senator Ernst. Okay. Thank you very much.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Secretary Rapuano, I want to go back to the issue you were 
talking about, in terms of rapid innovation with respect to 
biological resources, and with technologies like CRSPR and 
others, just changing that landscape at a rate that we could 
just--has never occurred within the field before. Are there 
things that we should be thinking about now that can create 
some level of obstruction or raise barriers to entry to make 
sure that we're doing an adequate job of what we apply with 
respect to export controls and other tools in other fields? How 
can we make sure that, you know, we're not just missing some 
very big developments that could be happening under our nose 
with off-the-shelf Internet-purchased items, for example?
    Secretary Rapuano. Senator, that is something that we're 
very focused on with our interagency partners, in term--there 
are a number of norms, in terms of internationally, nationally, 
with regard to research being done in the bio area, where you 
look to not do certain things. But, well-established norms that 
get at----
    Senator Heinrich. That works great for the folks who follow 
the norms. It's the----
    Secretary Rapuano. That's exactly----
    Senator Heinrich. I'm wondering if we shouldn't have some 
sort of track-and-trace technology that makes sure that people 
are following the standards in the research community.
    Secretary Rapuano. There are efforts in that area. I didn't 
come prepared to speak in detail about them today. It's very 
difficult, though, because it's very widespread. The research 
is going on all over the world. It's not like more select 
research that's only being done in highly developed nations. 
It's proliferated to where it's being done, places that would 
have been unimaginable decades ago.
    Senator Heinrich. Well, that wasn't the answer I was hoping 
for.
    Secretary Rapuano. Me either.
    Senator Heinrich. I think we really need to put some 
thought into this, because this is a situation that feels like 
it could get ahead of all of us very quickly.
    I want to shift gears for a minute and ask you, General 
Osterman. With respect to Special Forces and how they have led 
the effort, in places like Syria and Iraq, in reining in 
development of chemical or biological weapons from groups like 
ISIS, you know, these are specialized missions. They're 
uniquely tailored for SOF [Special Operations Forces] 
capabilities. But, I wanted to ask, how would Special Forces 
perform this sort of a mission in a more conventional forces 
environment? Take a force environment like North Korea, where 
you have a very different battlespace than you would in Iraq or 
Syria, a lot of very heavily secured WMD sites. I'm just trying 
to get--without a specific locational answer, I want to 
understand how you apply that same mission set in a more 
traditional battlespace environment.
    Lieutenant General Osterman. Okay. Senator, I think I would 
probably answer that one from a standpoint of a reactive or 
proactive approach to it. Really, when you look at the 
proactive ways of being able to interdict things like that, it 
really is associated with a pathway approach. I think you 
alluded to that in one of your opening statements about, you 
know, components of different types of WMD that are required as 
precursors, or even technology requirements associated with, 
you know, missile or other type activity. And so, understanding 
pathways is important.
    I guess, when I would look at that from a--what we've done 
in Iraq and Syria, versus what we've actually--you know, would 
be looking at with a state actor, really the process is very 
similar. You look at that--for example, we could easily 
translate the human capital that is associated with the 
knowledge for these things, and that becomes a--an opportunity 
for targeting, whether it be kinetically or nonkinetically. So, 
I think there's a lot of similar things that way that can be 
done.
    When it comes to secure facilities, all those, I'd probably 
have to get with you offline on that one. But, the--as far as 
the details--but, I would say that the approach is very, very 
similar, in the sense that there's always human capital, 
resourcing, and technology that's associated with these type 
things. And just really depends on what scope it's actually 
being applied. But, the fundamentals still apply from--example, 
as I mentioned with our Fusion Center--the opts-intel fusion, 
to understand what is that indication of warning that things 
may be coming along, and, you know, how do you matrix that with 
the different threats that are out there, versus viability of 
the threat?
    If that answers the question.
    Senator Heinrich. Thank you, General.
    Lieutenant General Osterman. Sure.
    Senator Ernst. Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chair.
    Thank you both for your testimony. I'm sorry I wasn't here 
to hear it.
    But, can you--perhaps this is for you, Secretary Rapuano--
how do we describe ``weapons of mass destruction''?
    Secretary Rapuano. Senator, that's a great question. In 
different quarters, it's described in very different ways. If 
you look at domestic law, the Department of Justice defines 
``weapon of mass destruction'' essentially from a firecracker 
to a thermonuclear bomb.
    When we look at it in an international perspective, we have 
a much higher threshold. So, it is a weapon that causes 
significant effects. But, you still see a very wide range. 
Chlorine, for example, which is an industrial chemical, can be 
used, and has been used, as we know, by the Syrians and ISIS as 
a chemical weapon. It doesn't have near the level of effect of 
nerve gas and other agents.
    It's a pretty wide spectrum, but it's essentially a 
chemical, biological agent, or nuclear device that creates 
significant consequence.
    Senator Shaheen. Do we consider cyberattacks as potential 
weapons of mass destruction?
    Secretary Rapuano. We have not defined, to date, in terms 
of how we, in the U.S. Government, use the term ``WMD''--we 
have not defined that to include cyber.
    Senator Shaheen. Should we? I notice that the Nuclear 
Posture Review contemplated that there might be situations in 
which the massive use of cyberattacks could result in, 
potentially, a nuclear response. So, should we be thinking 
about them in those terms? Cyberattacks?
    Secretary Rapuano. So, Senator, my reading of the NPR, it 
doesn't define ``cyber use,'' it defines----
    Senator Shaheen. Boy, it leaves a pretty big hole----
    Secretary Rapuano. It----
    Senator Shaheen.--there, though.
    Mr. Rapuano.--defines the effects----
    Senator Shaheen. Right.
    Mr. Rapuano.--of any use of any technique that would be 
extreme and disastrous for the Nation, that could result in our 
response with nuclear weapons. So, it's not the means, it's the 
end.
    Senator Shaheen. Right. But, anything that might produce 
that sort of end has to be pretty disruptive. And so, the 
question I'm raising is, Should we be thinking about cyber in 
the same way that we're thinking about these other weapons of 
mass destruction? Because certainly they have the potential to 
create the same amount of chaos and potentially the same amount 
of fatalities, depending on how they're used.
    Secretary Rapuano. Senator, I think the challenge with that 
is, cyber is a domain from which there is zero negative effect 
all the way to ``could be very high'' potential effect. With 
the WMD classification, one of the distinctions has been the 
threshold of even lower use is significant enough to 
characterize it as a class of weapon.
    Senator Shaheen. Isn't part of the issue with cyber is that 
we don't really have a well-defined body of law and response, 
proactively--``response'' is the wrong term--that we don't have 
a proactive way to address the potential of cyberattacks, and 
that that's part of what makes it very difficult for us to 
figure out how to categorize those?
    Secretary Rapuano. I believe the challenge with any means, 
whether it's cyber or other avenues of attack, is, What is a 
threshold that will warrant what level of response? It's a 
threshold of the consequence that I believe is a deciding 
factor to determine what level and what significant the 
response would be.
    Senator Shaheen. I appreciate what you're saying. I don't 
think that really responds to the question that I'm raising, 
however.
    I want to go to another issue around cyber, though, because 
I appreciated the Department's response to my inquiry regarding 
the work that the Department does with IT companies and the 
issue around sharing sensitive source-code data with Russia and 
other hostile governments. I wonder if you can tell me why DOD 
doesn't require companies to disclose information about whether 
they have released their source-code information to hostile 
governments, and whether we should be doing that.
    Secretary Rapuano. Senator, I don't come here to today's 
hearing with details on that, but I can get those answers for 
you.
    [The information referred to follows:]

    The Department of Defense does not currently monitor 
whether commercial information technology vendors share source 
code or other (non-controlled) commercial intellectual 
property. There are cost and efficiency advantages for the 
Department in procuring commercial off-the-shelf software. The 
Department is currently exploring the feasibility of such a 
disclosure requirement and how we might implement the process 
without undermining the advantages of relying on commercial 
software.

    Senator Shaheen. I would appreciate that. Thank you.
    Senator Ernst. Okay. We'll start our second round of 
questioning.
    Secretary, in the Department's strategy for countering 
weapons of mass destruction, DOD states that it will dissuade 
pursuit and possession of WMD by demonstrating layered defenses 
based on active and passive capabilities. You had made those 
comments, as well, in your opening statement. Can you--in this 
opening setting, can you describe what those capabilities are? 
What are those layered defenses?
    Secretary Rapuano. So, Senator, that--there's a range of 
defenses, depending on the type of weapon used and the 
consequences of the effect, starting with the passive--that's 
inclusive of resilience, to deny the adversary the intended 
benefit of the use; so the better defended or the more 
resilient the targets of their attacks, the less inclination on 
our--their part to employ it; active military operations, or a 
range of other activities that are not necessarily kinetic 
military operations, from a whole-of-government perspective--
it's a well-known list, as you know: sanctions, there are 
diplomatic actions, there are financial penalties; and then, 
getting into the military space, there's a full range of what 
the total force brings, in terms of capabilities for response.
    Senator Ernst. Okay. As Secretary of Homeland Defense and 
Global Security, you coordinate the CWMD policy and oversee 
defense support to civilian authorities. How is DOD postured to 
respond to a CBRN incident in the Homeland? Can you give us an 
example and walk us through that?
    Secretary Rapuano. Senator, we have what we call the CBRN 
Response Enterprise. It's almost 19,000--a combination of 
National Guard and title 10 military who are formed into a 
variety of teams. We have the WMD CSTs, the Civil Support 
Teams. We have the Enhanced Response Teams. We have a range of 
teams with a different mix of capabilities that go from 
decontamination, detection, medical effects, medical treatment. 
There is air transportation, ground transportation--the whole 
package that can be integrated, that can either be commanded by 
the State National Guards--and there's at least one team in 
every State--or they can be authorized under title 10 and under 
DOD command.
    Senator Ernst. I appreciate it. Thank you for the shout-out 
for our CSTs. I'm intimately familiar with the CST existing in 
our Iowa National Guard; Air Guard, as well. We have both--both 
Air Guard and National--Army National Guard that combine their 
forces as a joint force. They work very proactively.
    Just for the public's information, can you describe their 
proactive stance and where they might be stationed during large 
events--perhaps they were around the Super Bowl this past 
weekend--just so people understand how we utilize those teams?
    Secretary Rapuano. Yes. As you imply, Senator, we use them 
on a routine basis, starting with national special security 
events--the Super Bowl, other large events, 4th of July. These 
assets will be predeployed in the vicinity of activities for 
which there may be some concern that they would be the target 
of an attack that might include WMD. And they are prepared to 
respond, in concert with all the other assets that are 
typically deployed for those events, law enforcement and 
others.
    Senator Ernst. I appreciate that. Just to make it clear for 
our public that we are not just reactive in certain situations, 
but we're also very proactive in making sure that our public is 
safe here on the Homeland.
    Secretary Rapuano. Absolutely.
    Senator Ernst. Thank you very much for that.
    We'll go on to Senator Sullivan, if you would like to take 
an opportunity to ask some questions.
    Senator Sullivan. Thank you, Madam Chair.
    Gentlemen, good to see you. General, Semper Fi.
    I don't know if the Chair already asked it, so, if she did, 
I apologize for the repetition. But, how is the transition 
going from STRATCOM [United States Strategic Command]? Are 
there assets that--or authorities that you need right now from 
us that can help with this mission? I actually think, from a 
broader national-security mission, the counter-WMD mission is 
kind of the evergreen mission. We might be going after ISIS for 
a couple more years, or al Qaeda, but, as long as we're a 
republic, the counter-WMD mission is the evergreen mission--in 
my view, the most important mission in the U.S. military. We 
want to make sure it's resourced. I actually think it made 
sense to transfer it over to SOCOM, but I'm sure the transition 
hasn't been flawless. And it's not like, General, you guys 
don't have other missions that you're currently focused on. I'm 
wondering how it's going.
    Lieutenant General Osterman. Senator, thanks for the 
question. Actually, the transition and assumption of the duties 
went exceptionally well, very close and good relationship with 
U.S. STRATCOM [United States Strategic Command]. It was well 
coordinated, well defined. Frankly, we--everyone came to the 
table with an understanding--a basic understanding of what the 
resource requirements were. And so, before--actually before 
assumption of the mission, we actually worked through all that.
    We're actually at a point right now where I'd--the way the 
plan was set up and General Thomas approved the--essentially, 
our transition plan--was that at the 1-year mark, where we are 
right now, we would reevaluate, kind of, how things went over 
the last year: Do we have the right people in the right places 
and the right resources aligned to the mission set? I think 
we're real close to what we need. We probably need to tweak it 
internally to optimize it. But, everyone was very, very 
supportive that way. So, right now, any additional resources 
we've put into the normal budgeting cycle, and I'm very 
confident they'll be represented in there.
    The--as far as the authorities, right now everything is 
moving along well, no problems with the geographic combatant 
commands and helping to work with them, nor with the 
interagency.
    Senator Sullivan. Great.
    Secretary Rapuano. Senator, if I could add that SOCOM 
really--having been someone who's tilled in this field most of 
my career, that--SOCOM brings a unique blend of experience, 
skills, capabilities, and relationships that make them uniquely 
well-equipped, particularly in terms of the relationship with 
the COCOM [combatant command], the operational equipage of the 
capabilities necessary. They have a visceral appreciation of 
that from their experience. And then working the entire threat 
or kill chain associated with CB [chemical biological] WMD, all 
the way from ideation to consequence management, and focusing 
the Department and the COCOMs in those areas that we have the 
most impact on getting at WMD.
    Senator Sullivan. Great. Thanks.
    Both in my capacity here and in--General, as you know, in 
my Reserve duties--spent a lot of time focused on this issue. 
Just recently, within the last six months, there's both been, 
kind of, exercises, kind of, at the very large scale, you know, 
the counter-WMD SINC conference, and then, more tactical in 
nature, the Bronze RAM exercise, are there--do you have after-
actions and, kind of, lessons learned from those operations, 
that are either classified or unclassified, that you could 
share with the committee, that, kind of--again, so we're having 
good visibility on how things are developing, what you see as 
strengths and weaknesses?
    Lieutenant General Osterman. Yes, Senator. We definitely 
have the after-actions. We use those to feed, you know, 
successive iterations. In the case of the field exercises 
there, we obviously adjust those in stride, based on, you know, 
emerging threats that are out there. So, probably not best that 
I say those here. And I--you know, in a closed session or----
    Senator Sullivan. Yeah;.
    Lieutenant General Osterman.--afterwards, we could get the 
classified information to you.
    Senator Sullivan. Great.
    And then, I'll just--and, Madam Chair, on the North Korean 
threat and the network that they've developed, you know, 
there's a lot of us who are, you know, very curious on how 
much--and I've asked a lot of the intel community on this 
issue--but, how much the North Korean proliferation network has 
helped with regard to not only what they're looking at, in 
terms of proliferation, but how--the advances they've made, 
particularly with regard to intercontinental ballistic missile 
testing. You know, it's hard for some of us to believe that 
that's all organic advancements. Because they've clearly made a 
lot of advancements, not only on the nuclear side, but on the 
missile side. Do we have a sense--and, again, maybe it's better 
for a classified session--are they getting help on the outside 
with regard to how quickly they're advancing? And are we 
confident that our networks are able to battle their networks 
on a country that almost certainly--certainly has a record of 
proliferation, but I think we should--we would be fools if we 
weren't assuming that they're going to try to continue to 
proliferate, even with this very strong, kind of, sanctions net 
around them.
    Secretary Rapuano. Senator, I would simply say, in open 
session, that this is something that we and the rest of the 
intelligence community are intensely focused upon. That's 
probably all I can say here.
    Senator Sullivan. Okay. Well, I'm glad you're intensely 
focused on it.
    Thank you.
    Madam Chair.
    Senator Ernst. Thank you.
    Senator Heinrich.
    Senator Heinrich. General Osterman, I wanted to ask you: 
Obviously, ISIS has lost, geographically been defeated, but 
would you still consider them a WMD threat, even in that 
scenario? Because, obviously, this is about talent as much as 
anything, and intellectual capacity. What's your analysis of 
that at this point?
    Lieutenant General Osterman. Senator, I--my analysis is, 
yes, they are still as threat, to put it simply. Really, when 
we look at pathways, we're looking at intent, infrastructure, 
and expertise, to your point, production, weaponization, 
delivery systems, and use. They've demonstrated not only that 
capability over time, but, even though the--as they lose the 
geographic caliphate, that those individuals that have the 
technical knowledge and, frankly, the level at which they were 
working, and have been working, is not one that, you know, 
would--by loss of that geographic caliphate, that it would 
undermine their ability to continue to pursue weapons-of-mass-
destruction----
    Senator Heinrich. Yeah.
    Lieutenant General Osterman.--capability.
    Senator Heinrich. Secretary Rapuano, one of our greatest 
challenges in countering, particularly, biological WMD is being 
able to, at scale, develop vaccines and other potential 
specialized medicines and pharmaceuticals for our troops or for 
populations that are impacted by those. And, you know, a good 
example is, when Ebola began to emerge, there was a DOD vaccine 
that hadn't gone through the FDA [Federal Drug Administration] 
full process, but there's not an obvious way to scale those up 
in a for-profit pharmaceutical company, in many cases, and we 
haven't found partners to do that. Have you thought about how 
to address this so that we don't get caught behind the eight 
ball, the way that we did with the Ebola crisis?
    Secretary Rapuano. Yes, Senator. We work very closely with 
HHS [Health and Human Services]--BARDA [Biomedical Advanced 
Research and Development Authority], over at HHS--DHS, to look 
at biothreats, in general, including naturally occurring, to 
sync our research with them to ensure that we're covering the 
full landscape of what's naturally occurring and what perhaps 
could be intensified or developed for malevolent use. So, we're 
looking at ways that we can get quick production, just in time. 
But, that's very difficult, because you need that base, in 
terms of that manufacturing base.
    Senator Heinrich. Right.
    Secretary Rapuano. We've done that in certain areas. In 
other areas, it's been more challenging. But, that's a 
priority. That's a priority that's also reflected in the still 
draft, but almost complete, National Biodefense Strategy.
    Senator Heinrich. I look forward to seeing that, because it 
seems to me that, you know, setting bioweapons aside for a 
moment, even with just zoonotic outbreaks, that we typically 
have not had the capacity to be able to manufacture things. We 
may know, through research, what would or might work, but 
getting that to scale in any sort of meaningful way, we just--
we don't have a mechanism to do that right now.
    Secretary Rapuano. Absolutely.
    Senator Heinrich. I've got a few seconds left, and then 
I'll turn it over to my colleagues. The--can you talk just a 
little bit, from either of you, on--talking about how 
communities collaborate and leverage relative strengths across 
the counter-WMD mission, in terms of: How do you bring all the 
different talents that different agencies and labs and et 
cetera have together? You mentioned the Fusion Center. Like, 
what has worked, when it comes to effectively leveraging the 
intellectual talent that is in different places?
    Secretary Rapuano. I'll take a start at that, Senator, and 
then hand it over to General Osterman.
    When you look at that spectrum of activities, all the way 
from intent and desire for WMD through use and response to, it 
is a very wide spectrum. When we look at any one agency, 
including the Department of Defense--roles responsibilities, 
authorities, capacity, scope--there's no one that can do it 
all. In fact, if you start to specialize and say, ``What tools, 
techniques, weapons can be applied to getting most return on 
investment, in terms of preventing, denying, responding''--so, 
if you start all the way to the left on the pathways, that's 
primarily export-control-driven, intel community, understanding 
what those pathways are. So, that's very heavy Department of 
Commerce, Department of State. But, there are still 
opportunities. For example, COCOMs are operating with partner 
nations. The militaries of other nations do things very 
differently than they do here. Some of them manage export 
controls. Developing an understanding of the individuals, 
characters, leaders, and what their level of interest is, it 
all forms a composite, in terms of our understanding.
    So, what SOCOM, for example, is doing with the Fusion 
Center is just improving that add mixture, that integration of 
intelligence, both from a national and a military intelligence 
perspective. As you go further right to a point of use or 
threatened use to response, our activities get much more 
kinetic, both in terms of military operational kinetic as well 
as the dynamics of a response, which really needs then to be an 
integrated whole-of-government response.
    We're very focused, in the past several years, on national-
scale events, intentional events, nuclear events. So, that 
obviously is a major challenge, in terms of: How do we achieve 
the unity of effort in crisis from--in real time? But, we are 
making progress in that area, as well.
    Senator Ernst. Very good.
    Senator Sullivan.
    Senator Ernst. I think we're doing Democrat, Republican, 
Democrat.
    Senator Sullivan. Okay.
    Senator Ernst. Yeah.
    Senator Sullivan. Thank you, Madam Chair.
    I wanted to get back to--and, again, if we've touched on 
this, I apologize--but, in terms of countries--so governments--
that you see as the biggest threats, from the perspective of 
counter-WMD threats, which ones would you put in the top 
category?
    Secretary Rapuano. From a strategic perspective, we----
    Senator Sullivan. Just a country that has capability and 
has a history of proliferation.
    Secretary Rapuano. Obviously, we need to start with the two 
countries who have existential WMD capability with regard to 
potential impact on the United States. That's Russia and China.
    Senator Sullivan. But, I mean, is there a history of China, 
with regard to proliferation, to bad actors; or Russia, the 
same? Like, for example, North Korea clearly, you know, helped 
Syria build a nuclear reactor, which the Israelis ended up 
bombing. Have we seen that kind of activity from----
    Secretary Rapuano. When we're looking at those countries 
that are of greatest proliferation concern, you know, again, 
depending--if you're talking the dual-use commodity size--side 
of the equation, it is more mixed, but then it's not entirely 
always clear where those dual-use items are going, whether 
they're going into an--WMD program, potentially, or a 
conventional program. But, Iran and Syria are two very 
significant nonproliferation actors, in terms of proliferating 
technologies. Iran has done it. There are a number of other 
countries that we have concerns and issues with that we would 
probably be better handling in closed----
    Senator Sullivan. And North Korea, of course?
    Secretary Rapuano. And North Korea, of course.
    Senator Sullivan. Let me ask another question related to 
that.
    Secretary Rapuano. Although, just on the point of North 
Korea, I wouldn't say in the context of proliferating WMD, per 
se. The dual-use piece is a lot more gray.
    Senator Sullivan. Well, they've built the reactor in Syria. 
That's about as dramatic as it gets, isn't it?
    Secretary Rapuano. It is a concern, but, really, depending 
on how you want to draw the threshold of, ``Are they knowingly 
and deliberately looking to provide WMD capability to another 
actor?''--again, that's better left to a closed session.
    Senator Sullivan. I had once heard a--I'll just describe it 
as a senior national security official--say that the JCPOA 
[Joint Comprehensive Plan of Action]--the Iran nuclear deal 
with the United States--was--had enabled us to kind of take our 
eye off that proliferation threat, because of the fact of the 
agreement. That's not the current view of the U.S. military or 
others, is it, General?
    Secretary Rapuano. That is not.
    Senator Sullivan. Mr. Secretary?
    Lieutenant General Osterman. I guess I'm from----
    Senator Sullivan. It was a shocking statement that I heard. 
I actually couldn't believe it, where somebody had mentioned, 
``Well, because we have the agreement now,'' which I was very 
opposed to, ``we don't have to look at them so much with regard 
to a proliferation nuclear-development problem.'' I think 
that's--I think that's just incorrect, and I just wanted to get 
that out there.
    Secretary Rapuano. You're correct, that----
    Senator Sullivan. So, both of you, that----
    Mr. Rapuano.--that is not the view of this administration.
    Senator Sullivan. Okay. Or the U.S. military as part of the 
administration.
    Secretary Rapuano. Or the U.S. military.
    Senator Sullivan. Let me ask one final question. With 
regard--we had Secretary Mattis testify in front of the full 
committee yesterday on the National Defense Strategy, which I 
think he got a lot of bipartisan compliments on for the 
thoughtfulness of the document, for what its focus is. But, in 
particular, one of the areas of focus in the document is the 
emphasis on our allies with regard to our National Security 
Strategy. In this effort, the ally participation with regard to 
counter-WMD would seem to me really important. Do you--are we 
getting cooperation? Do we have regular deep consultations with 
our NATO [North Atlantic Treaty Organization] allies or other 
bilateral allies who have similar capabilities that we have, in 
terms of counter-WMD? Or is there more that we can do to help 
encourage some of these important countries to coordinate more 
with our counter-WMD efforts?
    Secretary Rapuano. We have a variety of programs--I 
mentioned the CTR--but a number of proliferation programs, 
where we're developing capacity, on the part of allies, to 
operate in CBRN environments. We're assisting them, in terms of 
understanding dual-use commodities and the potential risks. 
We're working with them, for example, in the maximum pressure 
campaign, with regard to illicit shipments to North Korea, 
ship-to-ship transfers. So, we are very active. The Secretary 
is very serious about partnerships being a critical element. 
It's--from the Secretary, you've heard it from him--lethality, 
partnerships, and reform. That partnership component of our WMD 
approach is a mainstay.
    Senator Sullivan. Right. Thank you.
    Thank you, Madam Chair.
    Senator Ernst. Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chair.
    So, I wanted to follow up on that a little bit, because I 
understand that we're a participant under the Proliferation 
Security Initiative, and that that works with our international 
partners to interdict shipments of WMD-related items. Can you 
talk about that a little more than you just did with Senator 
Sullivan? And also, talk about its importance in addressing 
situations like North Korea, in terms of the potential to 
interdict shipments of nuclear-related materials.
    Secretary Rapuano. Yes, Senator. The Proliferation Security 
Initiative is not an operational coordination process. It's 
really about developing a common understanding and 
prioritization of proliferation consequences and impacts, and 
working together. What flows from that oftentimes are 
operational coordination. For example, the hail and queries of 
ships at sea. But that's not done with NPSI, per se. It's more 
about having that worldwide cooperation, discussing, agreeing 
conceptually; but actual operational coordination happens 
bilaterally in small groups. Another topic that would be best 
addressed in a closed hearing.
    Senator Shaheen. With respect to its importance in 
addressing the situation in North Korea, can you speak to that 
in this open session?
    Secretary Rapuano. Simply to say that we have a growing 
number of partners and allies who are looking to cooperate with 
us on addressing illicit shipments, including ship-to-ship.
    Senator Shaheen. Does that include states like Russia and 
China?
    Secretary Rapuano. Well, I just wouldn't go into detail, in 
this session, talking about individual relationships and 
agreements that--at this point.
    Senator Shaheen. General Osterman, as you have both pointed 
out, we have a multitude of threats of WMD around the world. 
Can you talk about how our military assesses the severity of 
each threat and the potential resources that it would require 
to respond?
    Lieutenant General Osterman. Yes, Senator. There's--I kind 
of described that pathway framework earlier. Most of the 
assessments are addressed in our functional campaign planning. 
So, in other words, we look at it from a wide variety of 
criteria, from their--you know, what is their intent, what is 
their ability, all the way through that. Then, really, from a 
transregional perspective, some of that threat is, you know, 
how are they looking to work this in a transregional fashion? 
Are they exporting? Is it, you know, a singular small node? Is 
it--what are the viability of chemicals that they may be 
capable of producing, for example? Or, as was mentioned 
earlier, the biological-agent aspect of things, et cetera. 
That's basically how we get into the assessments of that risk.
    Really, what we do is, we define that prioritization, if 
you will, of threats, and then, as I mentioned, matrix that 
with the actors that are out there to kind of come up with 
recommendations, up through the Department, about: How do we 
prioritize, and how do we set policy, you know, for those? 
That's really about it. Most of that's based on our 
intelligence and our technical means of looking at things. We 
translate that internally, just to make sure that we have the 
response and protective-force capability within the military to 
operate in that environment and/or, you know, counter the 
particular WMD we may be working with.
    Senator Shaheen. You were talking--Senator Heinrich, 
earlier, raised the question of ISIS and whether they continue 
to have the capacity to inflict major damage through WMD. You 
talked about the--and we've all read about the reduction of 
their caliphate, and that they're on the run. There have been 
several news reports recently that have talked about the fact 
that they--there are significant numbers of ISIS fighters who 
have gone underground and are reappearing in other places, and 
have the potential to reorganize. Since we saw that in Syria, 
and that's how ISIS reconstituted itself from al Qaeda, what 
are we doing about that? How much of a concern is that?
    Lieutenant General Osterman. Senator, what we're doing with 
that is that, even though the writ-large ISIS has a number of 
people that are basically moving to counterinsurgency--or to an 
insurgency type of mode, or whatever, the actual number of 
individuals that are associated with WMD production--and a--
this goes back to your definitional question about ``What is 
WMD?'' You know, the ability to put, you know, low toxicity 
into something, is that really WMD? It's a very, very finite 
technical capability and human-capital issue. It's--and they 
are generally not front-line fighters. They're--these are--they 
are folks that were not necessarily easy to track, but they're 
ones that we've been working on for a number of years, here, 
and have ideas where they are, if we haven't already, you know, 
basically, taken them off the battlespace.
    That's where my concern is and where we watch very closely, 
again, through the transregional approaches, to make sure that 
they're not leaving that area of operations and perhaps then 
becoming an export or, as we term it, an ex-ops threat to the 
United States, proper.
    Senator Shaheen. Thank you.
    Thank you, Madam Chair.
    Senator Ernst. I believe we have time for one more brief 
round of questions. If we can just maybe ask one final question 
in this last round, and then we'll wrap our subcommittee 
hearing.
    I appreciate, Mr. Secretary, the discussion about the 
different agencies that you interact with, whether it's 
Department of Energy, Homeland Security, other entities. Being 
the junior Senator from the great State of Iowa, one agency 
that I did not hear was the USDA [United States Department of 
Agriculture]. One thing that we don't often discuss is the fact 
that, yes, we want to protect our human capital, but part of 
that is also protecting our feedstocks here in the United 
States. We have had an active discussion, in the Agriculture 
Committee, about offshore vaccine banks for things like foot-
and-mouth disease that would impact agriculture at large with 
livestock, other diseases that could be introduced into plant 
varieties of agriculture. What are the discussions, when it 
comes to working on--with the USDA and protecting agriculture?
    Secretary Rapuano. Thank you very much, Senator. That was a 
major omission on my part. Agriculture is the lead Federal 
agency----
    Senator Ernst. Okay, thank you.
    Mr. Rapuano.--for threats to agriculture, livestock. They 
play a very important role, because that is a critical 
commodity, in terms of our economy and our population's needs. 
So, they are part of that team, and a core member of that team, 
helping evaluate potential threats to agriculture, and 
developing approaches either to forestall or respond to events 
that threaten U.S. agriculture.
    Senator Ernst. Okay. I appreciate that. Thank you very 
much.
    Senator Heinrich?
    Senator Heinrich. Thank you, Madam Chair.
    Secretary Rapuano, you mentioned the draft National 
Biodefense Strategy that was actually required back in the 
Fiscal Year 2017 NDAA [National Defense Authorization Act]. A 
number of members of this committee, including the Chair and 
the Ranking Member of the full committee, have been sort of 
waiting with bated breath for that. What is the holdup? When 
will we see that document, do you think?
    Secretary Rapuano. So, that is at the White House. We've 
been participating in the NSC [National Security Council] and 
DHS-led review of the biostrategy. I met with the Director and 
the NSC staff, two weeks ago, on that topic. To my 
understanding, it is just about there, but----
    Senator Heinrich. Okay.
    Mr. Rapuano.--I don't have the latest----
    Senator Heinrich. Because we're----
    Mr. Rapuano.--and I'm not----
    Senator Heinrich. And the reason being, we're hoping to use 
that for the Fiscal Year 2019 NDAA. So----
    Secretary Rapuano. Absolutely.
    Senator Heinrich.--the sooner, the better.
    Secretary Rapuano. Understood.
    Senator Ernst. Senator Sullivan.
    Senator Sullivan. Thank you, Madam Chair.
    Gentlemen, I just want to ask one final question on 
interagency cooperation, which I'm sure--I think we all would 
agree is really essential to defeating the networks that 
you're--the proliferation networks that you're focused on.
    Do you see that there is, in terms of this mission, 
sufficient cooperation between, say, the intel community, DOD, 
SOCOM, Department of Energy, Department of Agriculture, and 
others? Or are there statutory improvements that we could help 
you with that could help make sure that the mission and the 
interagency coordination is not stovepiped, and it brings 
together all the agencies?
    Secretary Rapuano. Senator, I don't see any statutory 
obstacles. In my experience, the interagency community working 
CWMD is very collaborative, works very well together. We are 
constantly looking for ways we can improve the process and 
focus and prioritize those threats that are most extant to us. 
Also, looking ahead at evolving technology and actors to better 
understand where the most significant threats will come from. 
That's part of the great work that SOCOM is doing in their new 
coordinating authority role for the COCOMs. So, we're--I would 
just, speaking for myself, from my perspective, say that we're 
on the right road, but we definitely have room to improve, and 
we're moving out.
    Senator Sullivan. Thank you.
    Lieutenant General Osterman. Senator, if I could onto that.
    I--with all the different functional areas and different 
units and everything else I've worked with in the military, to 
be honest with you, entering the counter-WMD realm here, I've 
never found a community that works more closely together. It's 
literally an open door everywhere you go, from not only a--an 
interagency, but also an IC perspective, and then also from an 
allied perspective.
    Some of those tangible examples are routinely meeting with 
the various intel agencies affiliated with this. And there are 
some organizations collaboratively working on tools and intel 
assessments, as well as getting tangible technical means on 
certain things.
    From an allied perspective, that question earlier, we 
actually bring in allied partners to our twice-a-year Global 
SINC [Strategic Information Networking Conferences] Conference 
that come in there to participate and sit in as participating 
members.
    It really is a--in my view, a tremendous community. 
Frankly, just having forums to bring them together, which is a 
big responsibility on SOCOM as a coordinating authority, to be 
able to convene those meetings, bring everyone together, and 
then get concerted effort in a particular direction, based on 
departmental guidance, has actually--that hasn't been the 
problem. You know, it's--everybody's willing to help. It's just 
trying to--getting everything moving in the same direction. And 
very, very positive responses, so far.
    Senator Sullivan. Great.
    Thank you.
    Senator Ernst. Well, thank you.
    I'd like to thank my colleagues and Senator Heinrich for 
coordinating this meeting for us today.
    As well, Secretary and General, thank you for your 
wonderful expertise and your commitment to the men and women of 
our uniformed services, as well as our civilian population 
citizens of the great United States, for all that you do. We 
look forward to seeing how SOCOM progresses during this 
transition, and we look forward to working with you on any 
initiatives that you deem necessary. Thank you very much for 
joining us today.
    We will conclude this subcommittee meeting.
    [Whereupon, at 3:40 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Martin Heinrich
                              wmd threats
    1. Senator Heinrich. Secretary Rapuano, how does DOD plan to 
address WMD threats posed by convergence of emerging technologies such 
as artificial intelligence and advanced health research capabilities 
such as CRISPR gene manipulating technology?
    Secretary Rapuano. Artificial intelligence, synthetic biology, and 
other technologies that lower the barriers to entry for potential 
adversaries are the very technologies that may help ensure we win the 
wars of the future. For this reason, the Department takes a balanced 
approach to addressing these technologies. DOD seeks to maximize 
opportunities provided by these technologies to advance our 
capabilities, while seeking to minimize the risks they could pose to 
our national security. As a matter of course, we actively monitor the 
emergence and convergence of new technologies to inform our risk 
assessments and capability requirements. For example, DOD recently 
funded the National Academies of Sciences, Engineering, and Medicine to 
review the changing nature of the biodefense threats in the age of 
synthetic biology and to develop a strategic framework to guide an 
assessment of associated potential security vulnerabilities. 
Additionally, DOD continues to leverage these types of technologies in 
the development of capabilities to address current and emerging WMD 
threats.
    2. Senator Heinrich. Secretary Rapuano, how does DOD's counter-WMD 
efforts collaborate with the civilian Counter WMD efforts at DHS? Does 
the recent formation of a CWMD office at DHS present greater 
opportunities for collaboration or challenges?
    Secretary Rapuano. DOD coordinates and collaborates with the 
Department of Homeland Security (DHS) on a number of issues related to 
our counter-WMD missions, including the BioWatch Program, the National 
Biodefense Strategy, and the National Technical Nuclear Forensics 
Center. DOD also collaborates with the Domestic Nuclear Detection 
Office's efforts to enhance the Global Nuclear Detection Architecture 
(GNDA), which serves as a framework for detecting, analyzing, and 
reporting on nuclear and other radioactive materials outside of 
regulatory control. DOD looks forward to continuing this coordination 
and collaboration with the new DHS Countering Weapons of Mass 
Destruction (CWMD) Office. We also welcome any improvements in 
efficiency and effectiveness that may result from the establishment of 
this new office.
                           radiation exposure
    3. Senator Heinrich. Secretary Rapuano, over the past year, we've 
heard news reports highlighting problems facing servicemembers and 
veterans seeking treatment at the Department of Veterans Affairs whose 
radiation exposure was not recorded or tracked. Unfortunately, this 
spans across exposure at Pacific island nuclear test sites in the 
1950s, in Desert Shield and Desert Storm, around the Fukushima nuclear 
disaster, and via depleted Uranium use in current operations. These 
examples demonstrate the urgent need and application for modern 
personal dosimeters that provide a legal record of radiation exposure 
for each servicemember.
    I commend the Army Reserve and Army National Guard for ensuring 
that 100 percent of their soldiers have the most modern and capable 
personal dosimeters. I understand, however, that the Active Army 
currently has a significant readiness shortfall in this area, having 
supplied only 50% of their soldiers with personal dosimeters that 
provide a legal record of any radiation exposure.
    What is DOD's plan to ensure each of the military serves can field 
similar personal dosimeters?
    Secretary Rapuano. The U.S. Army is closely collaborating with the 
U.S. Navy on the acquisition of the Joint Personal Dosimeter--
Individual (JPD-I), which will eventually replace the legacy dosimetry 
systems for Active Duty, Reserve, and National Guard personnel. The 
U.S. Army plans to test the U.S. Navy's newly acquired Battlefield 
Dosimeter based on the lessons learned from DOD's response to the 2011 
Fukishima Reactor disaster (Operation Tomodachi).
    The U.S. Marine Corps plans to maintain a squad-level dosimeter.
    The U.S. Air Force intends to maintain the commercially available 
Thermofisher Electronic Personal Dosimeters (EPD), which were procured 
prior to Operation Tom odachi. The U.S. Air Force expects to start 
replacing those in the middle of the next decade and is observing the 
U.S. Army and U.S. Navy test results for the JPD-I as well as costs in 
its evaluation of the Thermofisher EPD.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                           dod cybersecurity
    4. Senator Shaheen. Secretary Rapuano, could you explain why DOD 
does not require companies that it contracts with to disclose instances 
where they have shared source code with foreign countries?
    Secretary Rapuano. DOD does not currently require DOD contractors 
to disclose when they share source code or other (non-controlled) 
commercial intellectual property. DOD accepts that among the risks 
associated with acquiring commercial, non-controlled technology is the 
possibility that such disclosures may occur or that an adversary may 
acquire the technology for test and evaluation.
    In efforts to mitigate risks associated with the use of commercial 
products, the Department's current risk management approach considers 
all source intelligence information, hardware and software evaluation 
results, known vulnerability information, and the criticality of 
product in the system. If a risk is discovered, the Department has 
established practices and a variety of system analysis tools it can 
employ to determine the existence of vulnerabilities. If a 
vulnerability is discovered, the Department will take the appropriate 
action to remediate and reduce negative impacts on critical systems.

    5. Senator Shaheen. Secretary Rapuano, if DOD does not ask 
companies directly about their interactions with foreign governments 
overseas how can we be sure that hostile governments do not obtain 
source codes and other data that may give them access to U.S. 
Government systems?
    Secretary Rapuano. The Department employs a comprehensive approach 
to product acquisition. In general, the Department is aware of 
countries that require organizations to submit source code for review 
for certain types of security products. DOD, however, assumes that a 
capable adversaries have the capability to discover latent 
vulnerabilities in commercial applications without access to source 
code. To mitigate this risk, DOD participates in Government-wide 
strategic efforts to protect commercial technology through a controlled 
risk management process, has an established approach to supply chain 
risk management that uses clearly defined process and functions to 
acquire products. These risk management processes may consider all 
source intelligence information, vulnerability information, results of 
hardware and software test and evaluation, and criticality of product 
in the system.

    6. Senator Shaheen. Secretary Rapuano, the FY18 NDAA contains a 
provision that directs the President to establish a national policy 
with respect to matters pertaining to cyberspace, cybersecurity and 
cyber warfare. Do you believe it is important that the administration 
articulates such a policy and have you been consulted in its drafting?
    Secretary Rapuano. It is essential for the United States Government 
to have a holistic strategy to address the range of challenges and 
threats confronting the Nation in cyberspace. My staff and I work in 
close collaboration with the National Security Council (NSC) and our 
interagency partners at the State Department, Department of Homeland 
Security (DHS), the Federal Bureau of Investigation (FBI) and other 
departments and agencies, to ensure the Federal Government has the 
necessary policies and is taking appropriate actions to address the 
critical issues and potential threats in cyberspace.
    Over the past year, the Department has participated in the 
Administration's efforts to articulate clear policies and priorities 
for cyberspace. These policies include Executive Order 13800 
Strengthening the Cybersecurity of Federal Networks and Critical 
Infrastructure, which directed concrete actions to address cyber risks 
across the Federal Government; The National Security Strategy (NSS), 
which furthers the Federal Government's cyber posture by prioritizing 
and directing action to ensure the security of the domain; and the 
National Defense Strategy (NDS), which refines, clarifies, and 
prioritizes missions for DOD in and through cyberspace.

                                 [all]
</pre></body></html>
